HHS/OIG, Audit - "Review of Blue Cross Blue Shield of Maine's Postretirement Benefit
Plan," (A-07-05-00196)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Blue Cross Blue Shield of Maine's
Postretirement Benefit Plan," (A-07-05-00196)
August 8, 2006
Complete Text of Report is available in PDF format (384 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine (1) the allowability of postretirement benefit
(PRB) costs Maine claimed for Medicare reimbursement for fiscal years (FY) 1992 through 2000
and (2) the Federal Governments share of excess Medicare assets resulting from previously
funded PRB costs.  Maine did not claim all PRB costs that were allowable for Medicare
reimbursement for FYs 1992 through 2000 because it did not claim PRB costs in accordance
with the Medicare contract. Therefore, Maine underclaimed $112,044 of allowable PRB costs.  The
Federal Governments share of excess Medicare assets resulting from previously funded PRB
costs was $625,306.  The net of these amounts, $513,262, should be remitted to the Federal
Government.  We recommended that Maine remit $513,262 to the Federal Government for
excess Medicare assets resulting from previously funded PRB costs.  Maine concurred
with our recommendation.